Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




     YOUTH AND ALCOHOL: 

  A SAMPLE OF ENFORCEMENT 

  AND PREVENTION PROGRAMS 





                 Richard  P. Kusserow
                INSPECTOR    GENERAL

                     oELo9-91-oo656
                      TABLEOFCONTENTS
IJYIRODUCI’ION            ................................................                                                      1


CHART OF ENFORCEMENT                         AND PRFMWTION                            PROGRAMS                   ...........    4


l3WORcElMENTPROGRAMS                            ...................................... 
                                        6

   Alcohol Awareness Program ...................................... 
                                                           6

   DUI Victim’s Panel _..Q ......................................... 
                                                          7

   OperationEAGLE               ............................................. 
                                                 8

   Teen Court ................................................... 
                                                             9

PRESENTION          PROGRAMS                .......................................                                            10 


   Beginning Alcohol and Addiction Basic Education Studies (BABES) Alive ...                                                   10 


   Drug Abuse ResistanceEducation (D.A.R.E.) ........................                                                          11 


   Harper High Rap Team ........................................                                                               12 I 


   Just Say No, International-Public Housing Initiative                                    ...................                 13 


   Motivational Media Assemblies ................................... 
                                                         14

   Ohio Parents For Drug Free Youth ................................ 
                                                         15

   Operation Prom/Graduation ..................................... 
                                                           16

   Oregon TOGETHER!                     ......................................... 
                                            17

   Project STAR ................................................ 
                                                             18

   Pupils, Lawyers, and Nurses Against Drugs (P.L.A.N.) ..................                                                     19 


   Virginia ABC Educational Programs ...............................                                                           20 


   Washington State Association of Broadcasters . . . . . . . . . . . . . . . . . . . . . . . . 21 


APPENDIX         Contacts for Additional Programs
                          INTRODUCTION
PURPOSE

This inspection identified a sample of national, State, and local programs that educate
youth about (1) the health and social effects of using alcohol, (2) State alcohol laws
and penalties for minors, and (3) ways to resist alcohol and increase self-esteem.

BACKGROUND

In responseto public health concernsand the adversehealth effects of alcohol abuse,
Surgeon General Antonia Novello requested that the Office of Inspector General
(OIG) provide information on State alcohol laws and enforcement. These concerns
mirror one of Department of Health and Human Services(HHS) Secretary Louis
Sullivan’s goals which is to reduce the prevalence of alcohol problems among children
and youth. This report is one in a series of reports prepared by the OIG concerning
youth and alcohol.




Within HHS, OSAP is part of the Public Health Service. The OSAP leads HHS’
efforts to prevent alcohol and drug problems. The Anti-Drug Abuse Act of
1986 created and authorized OSAP to “make grants to public and nonprofit private
entities for projects to demonstrate effective models for prevention, treatment, and
rehabilitation of alcohol and other drug abuse among high-risk youth.“’ The
Anti-Drug Abuse Act of 1988 expanded OSAP’s role to promote State involvement by
providing competitive and block grants?

Each year, OSAP funds prevention programs that may be replicated or adapted by
other communities. Between 1988and 1990,OSAP funded more than
260 multi-year grants targeted toward youth. To satisfy OSAP funding criteria,
programs must (1) identify and reduce characteristicsin youth, families, or the
environment that place youth at high risk, (2) build youth and family resistanceskills,
and/or (3) encourage community leaders and groups to coordinate prevention
programs more effectively.s The OSAP funding is usually “seed money,” with the



   ‘OSAP, The OSAP ExDerience 1986-1990,February 12,1991, p. 4.

   21bid.,p. 8.

   3OSAP, Demonstration Grants For the Prevention of Alcohol and Other DN~ Abuse Amone Hieh
Risk You, Proeram Announcement No. PA-91-31, p. 5; OSAP, Announcement: The Community
PartnershiDPromam. GRPR3, pp.3-4.


                                             1
expectation that programs will become self-supporting before OSAP funding expires.
Each year, OSAP publishes a booklet describing programs funded by their office.

l%e De-        of Educodon (W) fun& school-basedpmgmms in the alcohol and chug
edldxtbn efort

The Anti-Drug Abuse Act of 1986also authorized ED to lead school-basedalcohol
and drug prevention activities. Since 1987,ED has implemented about 15 programs
that provide information, technical assistance,and financial support for drug
prevention programs!

In addition, the Drug-Free School Recognition Program (DFSRP) within ED
recognizespublic and private elementary and secondaryschoolsthat educate youth
through innovative methods.Each year, DFSRP solicits applications from schools
about their programs and judges them against seven“indicators of success.” The
indicators are: (1) recogni&g, assessing,and monitoring school-specificdrug
problems; (2) setting, implementing, and enforcing strong policies; (3) teaching drug
prevention; (4) training staff; (5) involving students in drug-free activities; (6)
promoting parent involvement and providing parent education; and (7) interacting and
networking with community groups and agencies.5 Each year, DFSRP publishes a
booklet describing the recognized programs. Between 1988 and 1991,DFSRP
recognized 184 programs nationally.

Natbnally rec~progmm             lLwaRy incorJxvuteseveml key elkmews and audienca for


Most nationally recognized programs include the following key elements to educate
students: (1) addressingall drugs (including alcohol), (2) concentrating on life-skills
and self-esteem,(3) providing positive role models for students to emulate, and
(4) identifying alternatives to alcohol and drug use by developing future goals. Instead
of using scare tactics to discouragedrug use, nationally recognized programs use
activities that capture and maintain student interest.

Communities often tailor programs to their own needs and youth interests. Some
programs focus on parents by building or reinforcing positive parenting skills. Others
begin prevention education at age 3 and educate students through plays, animation, or
puppets. Although the methods differ, the goal is the same: to change society’s
attitudes and perceptions about alcohol and drugs.




   ‘Department of Education, Profiles of SuccessfulDNE Prevention Proerams
1988-1989,Foreword, p. v.

   ‘Department of Education, 1990-91DNE-FEC School Recoenition Promam Nomination
Requirements, pp. v-vi.


                                               2
                                                                    .
Often, communities develop programs in response to a tragedy or when inspired by a
famous speaker. The well-known “Just Say No” program was started after former
First Lady Nancy Reagan spoke with students about resisting drugs. In Just Say No
clubs, adults act as facilitators, while students plan and conduct club activities. Other
programs, such as Drug Abuse ResistanceEducation (D.A.R.E.), use police as
instructors.

METHODOLOGY

During August, September, and October 1991,we conducted interviews with officials
from 46 programs. We used a three-step processto identify youth enforcement and
prevention programs. First, we reviewed program literature from several public and
private sourcesincluding OSAP and DFSRP. Second, during interviews with alcoholic
beverage control (ARC) ~offi&ls from all 50 States and the District of Columbia, we
asked them to identify innovative youth programs. Third, during interviews with
programs identified by ARC officials, we asked for additional recommendations of
innovative programs.

We used a structured discussionguide during in-person or telephone interviews with
program officials. This report summarizesthose interviews and our literature review.




This tqmt     is not intd  to be either a comwehensive list qf all model
prumzms     or an HHS endorxment    of the menthed ~m?mms.


                                            3
     ENFORCEMENTAND PREVENTIONPROGRAMS 

      PROGRAM                                           LOCATION

       4E                                                 iz!E




                                                         VenLdors
                                                          L   Under 21                L     I      P      I­          I
                                                   ammunity
                                                        L              ll?lS
                                                   tz4xflmunity
                                                        L    ­          311          EP I spIaI
                                                   cmmunity                          LI           26P          C PD
                           Anmml Teen Street Dance      1               14-18
                             DUI offenders court
* DUI Victim’s Panel, WA OrdertdtOliStClltOvictims
                                                        33ur&choo       DUI
                                                                      offenders
                                                                                     L-P           v           cm
  Fake D Tnitiati\n AK    ~~~istudenti          names                  18-20
                                                                      Vendors
                                                         H&&s                          S         4SijOP



                                                                                  =I=
                                                          S           dlcxs
                                                        communitv     Parents         L         lsP,3sC
                                                                       14-18         LS            P
                                                                      LJndcr21        L     1     3P      IPJQS       1
                                                                                   L$LP     1 lP,V        lccr,s      I



* BABES Alive, WA                                                                                lP,V          C,S
                            Summer day camp for
 Camp Tuff Enuff, OH            SOat-riskyouth
 cornerstone Project         Afterschool academic       Community
                                hsocialtutoring                        u-la
  Inc,m
                            Police    hyouthabout         SckoI
@DAR&CA                      alcoh:     self-e&cm           N          S-18
                                                                      hder2l          M     I      C      I     S     I
                                                            S          3-18        $F,J,P   1 I4P,V       1 CS,T      1
                                                          SChOOl       u-4         LLP,S    1     1P      1 N/A       1
                                                        ctzlmkunity
                                                                                   SP,M,PI 31P.V          I    CP     I
                                                          SciLl
                                                            s          M-18       Lw?ssI           P      I pD,sI
        ENFORCEMENTANDPREVENTIONPROGRAMS 

        PROGRAM                 CREATIVB
                               TECHNIQUES
                                                      LOCATION

         ii&                                              EL




                                                            L
                                                          School



                                                            L          11
                                                          Housing   Jndex 2I
                                                            N
                                                          School
                                                                     ll-14
                                                      co&                      ;
                                                         S      Parents
                                                      Community
                                                         S      Jnder 21
                                                      Community
                                                                    Jnder 21
                                                        SCLO~
                                                          L         3-6
                                                      khooI/-Home llE-13
                                                        s&o*
                                                          N       l4-l8
                                                        School
                                                          L       lO-11


                                                                               G-#-z-
                                                        Schml
                                                          L        8-18
    TheScuttNewman       )Studentsdevelcp antidrug      School
                              PSAam.uiiercials -          N       l&l8
     center, CA
                            Religious leadersteach    -
    SANEOK                   urevention/education                    S-21          MP   35P.35Vl       CP
                                                      3z&3-
     Pnxram,VA            for ytnmgstersw/problelns                  l4-18          S       c I s
                           HSstudentstcachpde             s&o,
    SOD& VA              schools akohol seIf­                        S-IO           S       v I s
*,yirginia~E&&cma POhCecOnductrmnars’
                                -+-                                 hIder2l        P       5P      I   PD
* w&g2..      llssotz                                                l5-20         LP       1P         C
,    of Bnxdcasters          broadcastguidelines                                                   I
                         AkokoL drFgp&=v                            Jnder2l        $1
    We’re Warth I!, OH           a
                          Pil~trishtetducation&                                         12 P, 25 V b P, PD, 3
  WRAP,-A                    enforcement pmject                      &I4           SF
  YouthEilStS&                Safe-rides,mentors,
1 !%rviccs,WA                 conferences video                      9-18

    Y-Youth,      OH                                                 &ls
                                 ENFORCEMENT                                         PROGRAMS


                                         ALCOHOL               AWARENESS PROGRAM




For 9 months every year, Plymouth,          :.:.::I
                                            ,:..   ...,.,.:
                                                    ......:...?.‘j.‘A:.
                                                                     ‘,.:ii.,:.z..::
                                                                          ...: ..:..:.::‘,,j::.: .:..    ,.:.
                                                                                                  :..,‘....         :.:..
                                                                                                           ,::;..::.:.y .:.::..
                                                                                                      ..i,,.:....y:,~,,..(.
                                                                                                            :. ::::::        ,:....a.:
                                                                                                                                .::.:::;.::
                                            ‘i-~~~~n~~~~~: ~~~~t~~~.i~~~~~~~~~~~~..                                              .:..‘.::..                :liiil:
                                                                                                                                                               ::::;
New Hampshire is transformed from a         :,,c,_liri:gti&;~itti
                                                     ..:::...
                                                ~~~::.~    ....                             . ‘...‘:I’
                                                                                          ..::,      ‘:.:::>; ,j:j.?..3::
                                                                                                                      :::.:;:.:I::::.,
                                                                                                                                     ,,F:. :.
small, rural town into a bustling college    .il~~~~~~t~::i~d~~~~~~~~~l~~h~~~~~        e.:cogggfs mpg;.. &:.:;i.:-­                              ;:&; :I:
                                                                                                                                                  y..:,:I
community. During orientation week,          :>:.g;:;;>.
                                                    :.:.:.. :.:::.:    ....:.:.      ,.:
                                                                                 .,_:,   ;.:,.
                                                                                             .:.: .:.
                                                                                                   .+:.:::;,:.:.:..
                                                                                                        .,.,
                                                                                                          :,..
                                                                                                            . :
                                                                                                              .  ,    ,:..       3.  j ..::
                                                                                                                                        ..     .:.:
                                                                                                                                                  ::‘.:..:
                                                                                                                                                     ..:::/,I;
freshman students become familiar with       ji,::,;;:,@i.;j&;:L          :ii(::j;.g:i:j:jriii:I:il:;::iii~~~~~~~:::~~~~
                                                                                                                    .!I::
                                                                                                                       “i:~;~~~~            ::;;g               :
                                            :.:.,.,.,:,:
                                                 .:::
                                                  1:.
                                                               :.:,:.:,.
                                                                    ..::.:
                                                  ~,,(,~,~,~,,,‘,~,,~    ..j.
                                                                           :I..::,l,i.::.~:i:~:~:~,.,~:
                                                                        ::::,   	./..,...
                                                .:::::)):.:.:.:.:;:::;::::::.:.‘;
                                                                            :.:    :.:.
                                                                                          ..:.Y’.:.:..
                                                                                       :.:..:...:.
                                                                                                 .
                                                                                    . ..i.........
                                                                                ..:.-
                                                                                 :.:..
                                                     .:::i.i::.:-I.:.::~::.‘:‘::~::.~:~~~~::
                                                                            i:’.,,..,
                                                                                                  ..
                                                                                             .:..,.:
                                                                                            _..     :...
                                                                                                      ...   ::.:.:.:.......:.:.:.
                                                                                                 -:-:-:.~.~:.:.:.:.:.’
                                                                                                            .:.:.
                                                                                                          .I..
                                                                                                 :;_::::,::::
                                                                                                       :,_,
                                                                                                          :::, .
                                                                                                             ,:.. ....::
                                                                                                                         ::j::.
                                                                                                                 .:.:.:.;.:.:.:
                                                                                                                  :     :.,...,.
                                                                                                                             ...:..:::..>
                                                                                                                                      ...j)):,.::.
                                                                                                                                              ;:::;
                                                                                                                     ...:.:.:::~.:::.::::,.,:::;:.;:::.
                                                                                                                 .i.j:..                   ...:.:.        .
                                                                                                                                                ....,::.....,,j.
the campus, their classes,and new                                                       .:..?z..         :,:,:
                                                                                                  _,)j:,):,::.::
                                                                                                           ::+./,..,     >.:::
                                                                                                                            ...y
                                                                                                                               :._:I:I:,::,.
                                                                                                                                       fj;:.. ,..            ,c
friends. They also become familiar with
college policies on alcohol and drug use and attend a short presentation on
New Hampshire alcohol laws given by the Plymouth Police Department. The police
developed their presentation in responseto increasing alcohol-induced problems by
college students-fights, drunk-driving crashesor injuries, and “crimes of opportunities”
such as vandalism and thefts.

As part of the campusAlcohol AwarenessProgram, police work with Plymouth State
College to conduct an alcohol program 15 times throughout the year. They familiarize
dormitory students and faculty with alcohol’s effects on the body. During the
9Ominute program, two students,who are at least 21 years old, drink several portions
of alcohol while police officers describe their changing reactions. At the end of the
program, the drinkers receive sobriety and breath tests to show the levels of
intoxication. According to Chief Libby, the program is very well received and “student
and police relations have improved.”

For more information, please contact:

                                                 Police Chief W: Daniel Libby 

                                                 Plymouth Police Depamnt 

                                                 Rum1 Route I, Box 13 

                                                 Plymo~h, New Hampshire 03264 

                                                 (603) 536-I804 or (403) 536-2825 





                                                                             6

Sevenyears ago in King County,
Washington, Judge David Admire decided
to change the way he disciplined offenders
convicted of driving under the influence
(DUI). He was frustrated that most
offenders did not understand the
magnitude of their crimes. .“Offenders         Drunk-driving victimssharetheir
who stand before me are usually so             stories with DUl offenders
concerned with the legal sanctionsthat                                           J
await them, they simply do not consider
the harm they may causeothers. My warnings, no matter how compelling, tend not to
be heard.” Repeat offenders were the norm.

With the help of Shirley Anderson, whose 23-year-old son was killed by a drunk driver,
Judge Admire established a victim’s panel. He sentencesDUI offenders to meet with
the panel. Twice a month, a small panel of drunk driving victims or their surviving
relatives bare their souls to 40 offenders they have never met and share the effect
drunk drivers have had on their lives. They are not accusatoryand damning; they
simply share the facts. This shock therapy is aimed at the cavalier offender whose
infraction did not result in an injury but who is likely to drink and drive in the future.
At the end of the session,offenders often give standing ovations and hugs to panel
members. Offenders are asked to critique their experiencewith the victim’s panel.
Typical comments are, “I can honestly say that it scaresthe hell out of me to think I
could inflict this pain on anyone. It will never happen again,” and “I cannot critique
such an immense flow of emotion that I can’t even fathom. By the blood of my soul, I
will not drink and drive, and I will fight with tooth and nail those who dare.”

Courts in 25 States have adopted the DUI victim’s panel concept. In Oregon, the
recidivism rate among drunk drivers has dropped from 42 percent to 6 percent in just
3 years. An Oregon study revealed that 90 percent of the offenders left with changed
attitudes. Some schoolshave incorporated panel speakersor videotapes of actual
panels into their driver’s education classes.

For more information, please contact:

                            Judge David Admkq King County District Court 

                            P.O. Box 425 

                            Redmond, Wahington 98452 

                            (206) 296-3667 



                                            7
                                               the traffic line. North Carolina police
                                               explaining   the   b&f   delay.

                                       and assessthe sobriety of all drivers,
                                       police arrest the intoxicated ones.
Operation EAGLE (ExcessAlcohol Guarantees Law Enforcement) is “on patrol.”

In the spring of 1988,North Carolina highway patrol and alcohol law enforcement
officials joined forces to reduce alcohol-related traffic crashesor injuries. They
developed Operation EAGLE to identify problem drivers. North Carolina officials
were concerned about drinking and driving, especiallyyouth who drank beer and wine.
Now, undercover agents in bars and taverns watch for salesand serviceto intoxicated
patrons. As these patrons leave, agentsrelay the car license information to police at
highway sobriety checkpoints.

During its first operation, Operation EAGLE received extensivemedia coverage. Live
television coverageshowed highway patrol and local police as they were briefed for
the operation. Then, television camerascovered checkpoints and on-the-spot arrests.
News media publicized that 70 to 80 percent of the people checked through the
checkpoints were minors.

Now in its third year, Operation EAGLE has expanded throughout the State. The
percent of intoxicated drivers continues to decreaseeach year--from 25 percent in the
first year to 23 percent in the secondyear and 16 percent in the third year. As the
program’s Deputy Director commented, “Public education works!”

For more information, please contact:

                           Mr. Alfred C. Warlick; Deputy Director
                           Governotis Highway Safety PTogram
                           215 East Lane Street
                           Raleigh, North Carolina 27601
                           (919) 733-3083




                                          8

                                         TEEN COURT

                                             LocATxoN      TARciEr           P-Al-ION
              cREATIvETEcHNIQuE              ANDSCOPE     AGE GROUP
       TEElSACTASPROECUTDt~                                  en            coMMuNrN,-
          ANDlURYFORTEENOFFENDERS                                             ANDnuDENls


  At first, the court sceneappears typical. The 

  defendant stands as the jury reads the sentencefor 

  alcohol consumption on a public beach. A closer 

  look reveals that everyone in the courtroom, with 

  the exception of the judge and a few audience                                  I         I

  members, is a juvenile. This is not a mock trial.           srudents-

  The defendant nervously listens to his sentence--24         jury members,bailiffs 

  hours community service and one stint on the Teen           and defendants in actual 

  court.                                                      juvenile court cases

  The Teen Court program provides the judicial 

  systemwith an effective and low-cost way to deal with juveniles who have committed a 

  misdemeanor for the first time. The primary purpose is to stop first time offenders 

  from becoming repeat offenders. The right blend of positive peer pressure, 

  accountability, and leniency both frightens offenders and gives them a second chance. 

  An additional benefit is the education youth receive about rights and responsibilities, 

  decision-making, the legal system,and drugs and alcohol. To serve on the court, youth 

  are recommended by their teachers,can apply on their own, or are ordered by the 

  court. 


   The court handles referrals from the Juvenile Probation Department. After pleading 

   guilty to the charge, the juvenile and his parents are informed of their choice to use 

   either the juvenile court systemor the Teen Court. If Teen Court is chosen,a trial 

   date is set, and the youngster signsa contract agreement to appear and accept the 

   decision. An actual juvenile court judge instructs the jury on available penalties and 

-- leavesthe rest to them. 


  Teen Court has received nothing but rave reviews. Comments include, “I felt peer 

  pressure and didn’t think the kids on the teen jury would like me. I thought they 

  would give me a big sentence,but they were fair.” and ‘Excellent program--kids get a 

  chance to make up for a mistake they’ve made, but also pay the consequencethrough 

  community service.” 


  For more information, please contact: 


                                  Mr. John Yanez, Teen Court Coordinator
                                  I400 East Ash Street
                                  Globe, Arizona 855501
                                  (602) 425-3231


                                                 9
                                                                                                .
                    PREVENTION                   PROGRAMS


  BEGINNING ALCOHOL AND ADDICI’ION BASIC EDUCATION STUDIES
                       (BJ+J=s) ALIVE
                                          LOCATION    TARGET        PARTICIPATK)N
                                          ANDscom    AGE GROUP
                                                        3l8      c(3MMuNTI”y.
                                          NATIONAL

Thirteen years ago, the National Council on 

Alcoholism developed Beginning Alcohol and 

Addiction Basic Education Studies (BABES). 

The Washington State Council on 

Alcoholism and Drug Dependence utilizes 

one part of the BABES program called 

BABES Alive. This program usespuppets 

to addressseveral family problems, including 

drugs and alcohol. 


The same characters star in each show-two 

kittens named Buttons and Bows, a fluffy squirrel named Myth Mary, a wise old owl 

named Donovan Dignity, Rhonda Rabbit, Early Bird, and a recovering alcoholic dog 

named Recovering Reggie. Buttons and Bows are the main characters, and each story 

centers on their problems about peer pressure,self-esteem,abuse, and drugs and 

alcohol. The other puppets portray common human personality traits. For example, 

Donovan Dignity portrays an adult who offers straightforward solutions, while Myth 

Mary always confusesissuesby advocatingsociety’s.opinions. Programs end with frank 

discussions. Common-senseissuesare addressedin a gentle and nonjudgmental way. 


While BABES originally was developed for elementary school students, the program 

now is divided into 5 student groups--preschool,kindergarten-3, 4-6, 7-9, and 

lO-12th grades. The BABES program developed sevenstories for each student group. 

According to the Executive Director of the Washington program, the appeal is 

widespread becausethe programs present alcohol and drug problems and information 

in an attractive and believable manner. Puppets keep the younger children’s attention, 

while older students actively participate in the show by becoming “puppeteers.” 


For more information, please contact: 


                           Ms. ffithryn Boudreay Executive Director
                           Washington State Council on Alcoholism and Drug
                             Dependence
                           IO50-I 40th Avenue N.E., Suite B
                           Bellevue, Washington 98005
                           (206) 643-2244


                                            10
                                        ullcxnoN      TAR=           PARTIClPATION
                                       ANDSCOPE      AGE GROUP

                                                        518        -POLICE
                                          PitEz%


Traditional law enforcement could not control Los Angeles’ growing drug and alcohol 

problems. To stem the growth, the police department developed a new program in 

cooperation with the Los Angeles Unified School District--Drug Abuse Resistance 

Education (D.A.R.E.). D.A.R.E. is aimed at preventing youngstersfrom having their 

first drug experience and has spread quickly throughout the country and around the 

world. Officers representing 3,500 law enforcement agenciesare trained to teach 

D.A.R.E. and will reach more than 5 million children in 1991. 


Specially selected and trained uniformed police officers teach a prevention school 

curriculum once a week for 17 weeks. The core lessons(1) inform students of alcohol 

and drug dangers, (2) provide them with resistanceand decision-making skills to 

combat peer pressure, (3) build self-esteem,and (4) develop alternatives to drug use. 

Initially, the program targeted only 5th and 6th graders, but it quickly expanded to 

other grades. To become a D.A.R.E. instructor, officers complete a mandatory 

80-hour training course. 


In 1990,an independent researchfirm completed the first evaluation of D.A.R.E.. 

The longitudinal study revealed that two-thirds of D.A.R.E. students agreed that they 

use fewer drugs or have decided to use fewer drugs becauseof what they learned 

through D.A.R.E. The study also found that (1) students find it easier to combat peer 

pressure, (2) study habits and grades have improved, (3) disciplinary actions have 

declined, and (4) students respect police officers more. The true test for D.A.R.E. will 

come as its first graduates fill the high schoolsin the coming years. 


D.A.R.E. America administers the program and distributes educational materials. 

Corporate and private companiesprovide funds to enable some communities to 

receive D.A.R.E. at no cost. 


For more information, please contact: 


                            Lieutenant Mike Schaffer 

                            P.O. Box 30158 

                            Los Angeles, California 90030 

                            (213) 485-4856 




                                             11 

                           IIARPER HIGH RAP TEAM 





As rehearsal begins, the now familiar 

beat identifies the musical sound as 

‘rapping.’ The Harper High School Rap 

Team practices their songsso students 

will hear the anti-drug messagesloudly 

and clearly. 


During the 198Os,school counselor John 

Zeigler sought a more effective way to 

prevent students from using alcohol and drugs. He wanted to “have an impact” on 

students while keeping their attention. Thus, he assignedstudents to analyze popular 

rap songsand answer questionssuch as: What is the message? Why does it appeal to 

you? Then, students wrote and performed their own anti-drug rap songs. 


The anti-drug rap assignmentsgrew into a new vision. In 1989,students formed the 

30-member, all-volunteer Harper High School Rap Team. They write their own songs 

and are the actors, dancers,and production staff. At the beginning of the school year, 

the team holds auditions to recruit new members. Members must maintain a C grade 

average and have parental consent to join the team. The Rap Team usually performs 

in schoolsand community centers. They also have performed at conferences,such as 

the Young African Americans Conference and the National Crime Convention in 

Miami. 


Mr. Zeigler also seesthe Rap Team as a way for students to develop self-esteemand 

responsibility. Students scheduleand run their own practices. A few years ago, they 

seldom saw anyone rising above the “drug scene”and knew few alternatives to “street 

life.” Now, Harper High studentsunderstand they have better choices. Another part 

of Mr. Zeigler’s vision is to prepare students for college. 


For more information, please contact: 


                           Mr. John Zeigler
                           Youth Guidance
                           54 WestJackson, Suite 900
                           Chicago, Illinois 60604
                           (3I2) 435-3900




                                           12 

       JUST SAY NO INTERNATIONALPUBLIC                     HOUSING INITIAm

                                                                                        I
            cREATIvETEcHNlQuE               LocAm          TARoEr
                                                                          PMTIclFmm
                                            ANDSCOPE      AGE OROUP
        sruDaNTCUJBSAR.EsEruPM                             UNDER21     COMMUNITY,­
  I       PuBLIcEKmmoPRoJEcIs                NATIONAL


In January 1985,First Lady Nancy Reagan spoke to 

students about the importance of resisting drugs. 

Inspired by Mrs. Reagan’s advice to “just say no,” the 

first Just Say No (JSN) club was formed in Oakland, 

California in 1985. Now, there are more than 15,000 

national and more than 12,000international clubs. 


The JSN clubs are for 7-to 14-year-oldstudentswho 

want to lead drug-free lives and help their peers do the 

same. While adults are facilitators, students organize 

educational, social, and recreational activities. 

According to Ms. Ivy Cohen, JSN International 

President, “We provide a clear anti-drug environment 

where kids feel comfortable. We teach alcohol, tobacco, a
 nd drug education as well as
resistanceskills, leadership, team building, and decision-nflaking skills.”

In 1989,JSN International joined forces with public housing authorities in six cities to
develop a 2-year pilot project. The JSN International staff trained local residents as
adult club .leaders and then set up clubswithin the housing authorities. Project
coordinators, appointed by the housing authorities, work with adult club leaders and
JSN International. The public housing initiative was a success.At the end of the
initiative, students expressedstrong anti-drug attitudes, well-developed resistanceskills,
and renewed personal values. In September 1990,JSN International expanded the
housing authority initiative from six to eight cities. Each housing authority has at least
5 clubs with a minimum of 25 members each. The expanded initiativee will last
through August 1992.

Just Say No International provides various free servicesto existing clubs and
communities interested in forming clubs,including educational materials, on-site
training for club leaders, and coordination of annual national events (Back-to-School
Month and the Spring Walkathon).

For more information, please contact:

                                Ms. Ivy Cohen, President 

                                Just Say No International 

                                1777 North California Boulevard, Suite 210 

                                Walnut Creek; California 94596 

                                l-800-258-2746 or (5IO) 939-6666 



                                               13
                       MOTIVATIONAL         MEDIA ASSEMBLJES

            cREATNETJzcHNIQuE                        lxRt3Er            P~TXIPATION
                                          ANDscoFT3 AGE GROUP



As the room lights go down, the
students’ excitement goes up. Lights
flash acrossthe screen,and stereo
music roars throughout the
gymnasium. Technicians glide
smoothly among the movie
projector, sound systems,and nine          date alcoholand
synchronized slide projectors. The         drug messages
show mesmerizesstudents for
40 minutes as visions of Michael
Jordan and Magic Johnson move
acrossthe 13-by 42-foot screens. The music of Paula Abdul and M.C. Hammer
provides background for alcohol and drug prevention or self-esteemmessages.As the
show ends, students talk excitedly about the programs. Once again, messagesfrom
“Be Excellent” or “Harmony” have sparked discussion.

 Motivational Media Assembliescreates and produces the 4Ominute programs. Each
*program runs for 2 years and targets 6th through 9th grade students. One of the
 programs examinesalcohol and drug use, abuse,and their effects. The programs use
 music, movie clips, and celebrity/student interviews. Student interviews are particularly
 effective in relating true-life stories about alcohol use, drinking and driving accidents,
 and resistancetechniques. A companion curriculum guide helps teachers generate
 classdiscussionsand reinforce the programs.

During 1990,3,000 secondaryschoolsaround the country viewed the programs. For
the past severalyears, Pepsi-Cola and Taco Bell have paid the annual production
costs. Professional athletes, rock stars, and other celebrities often donate their talent
to the productions. Local Pepsi-Cola bottlers and Taco Bell franchisessponsoredtwo­
thirds of the school assemblies. Motivational Media Assembliesalso works with
various police departments and community Project Graduation parties to present
programs in local communities.

For additional information, please contact:

                             Mr. Jeny Humphries 

                             Maxim Media--Motivational Media Assemblies 

                             I48 South yictory Boulevard 

                             Burbae California 91502 

                             (8I8) 848-1980 



                                             14
                                 Ohio Parents For Drug Free Youth
                              Drawing   the Line   on Alcohol    and other   Drug    Use




                                            LocATloN              TARGET              PA,RTKIFAmN
           -TEQIMQuE                       ANDsccm              AciEoRmP
         MPORMATIONAL-                                           PARPNCS            coMMuNTI”y. PARENTS
           KbRPARENTGROUFS


Healthy drug-free children is the goal of the Ohio Parents for Drug Free Youth
(OPDFY). Four years ago, Judge Andy Devine of Toledo organized the first
gathering of interested parties from around the State. Soon the nonprofit, statewide
organization was born.

To raise children free from alcohol and drugs, OPDFY concentrates on family
empowerment and community mobilization. The OPDFY deemed parent involvement
essential. Thus, while most organizations focus on youth, OPDFY servesas an
information clearinghouse and a consultant for parent groups. It (1) provides support,
technical assistance,and funding information for new and establishedlocal parent
groups, (2) advocateslegislation, (3) represents a unified parent voice for the
development of strategies,and (4) develops initiatives at the local, regional, and State
levels.

The OPDFY establishesa statewide network by recruiting one person from each
county to act as a liaison. This network allows OPDFY to stay abreast of current local
issuesand provide technical assistance.The OPDFY President seestwo main
challengesto local groups-raising alcohol awarenessand preventing parent burnout.

The OPDFY also provides speakers,a directory of all the county parent/prevention
groups, and a newsletter. It is also the State sponsor for the National.Red R&bon
Campaign.

For more information, please contact:

                             Ms. Hope Taft, President
                             Ohio Parents For Drug Free Youth
                             4373 Shire Creek Court
                             Hii%& Ohio 43026
                             (614) 771-7888




                                               15 

                       OPERATION PROM/GRADUATION

           cREATlvETEuiNfQuE              LocxTIoN     TARGET          PARTICIPATION
                                          ANDSCOPE    ACE GROUP
     Ai5sIsrANcEFoRLocAL~­                m-          urmER2l     --
       MsETuPDRuGmEEAcrMTxEs              STATEWIDE

A group of high school seniors engagesin 

lively discussionabout prom and graduation 

activities. They debate whether to hire a 

rock band, rent a mobile recording booth 

for students to “produce” their own audio 

tapes, or both. As the students create 

more and more ideas, you realize they are 

planning the annual alcohol and drug-free 

Operation Prom/Graduation party. 


Six years ago, the Virginia Departments of 

Education and Motor Vehicles (DMV) 

started Virginia’s Operation 

Prom/Graduation. The concept originated in Maine over 8 years ago. The program 

helps Virginia schools and communities organize their own alcohol and drug-free prom 

and graduation activities. Operation Prom/Graduation’s successhas grown from a few 

schoolsin northern Virginia. to about 85 percent of schoolsstatewide. 


Operation Prom/Graduation provides a planning guide and a resource packet to 

communities. The 150-pageplanning guide describeshow to plan activities, solicit 

community support, provide security, and organize clean-up after the events. It also 

includes samplesof successfulcommunity projects and activities, such as local rock 

bands and cotton candy machine rentals. Samplesvary, so communities can gear their 

activities to available funds. The resource packet has several items, including 

community coordinator guidelines, sample invitations to school principals, and parent 

brochures with brief information about State alcohol laws and social host 

responsibilities. 


Operation Prom/Graduation receivesfunding primarily from the Virginia DMV and 

donations from private organizations. Local activities often qualify for DMV grants or 

Drug-Free School funds through the U.S. Department of Education. 


For more information, please contact: 


                           Ms. Arlene Cundifi Coordinator
                           Viiia   Deparmzent of Education
                           Operation Prom fGraduation
                           P.O. Box 6Q
                           Richmom& Viirzia 23216
                           (804) 225-3243


                                            16
Oregon       TOGETHER!               &-d&s                 for        ::.>.::.+:iil::iliii::jii:++
                                                                          :.::..: ,‘,,::::::::.
                                                                                              ?::...
                                                                                                  c ..:...,?.I.
                                                                                            :...:...:.
                                                                                                  .:“.:..   :li.iij:
                                                                                                                 .,::::j:j:i:;!j.+..:::::
                                                                                                                                  ,.::.:..-::..::.....
                                                                                                                                               .. ::.:..:,
                                                                                                                                        ..‘....’...    ;;:+..y:
                                                                                                                                                         .:.. :;;
                                                                                                                                                              ..,..., ..‘.::..i
Drug Free Youth is a statewide project        ~~~,.$$&&i&
                                                      _...,.....     2,.&&k&l,
                                                            i,::.“:::~):::.:::.
                                                                          ,,--,.
                                                                              ,:::.     :y:-t;ia.
                                                                                 ...j.j.,::
                                                                                     :yy.:.:::.:       :,:%)regon:;y
                                                                                               :....,.:.:.,
                                                                                                          ,j::.j..:, ‘,::;.:::, i$;:;$~;.:
                                                                                                                                .i:,;::: :j;:j
                                                                                                                                     . .’:..:,
                                              I’l’l’G&~ut*es~                    ~.d~~~~‘.~~,~piement,                                    I...
that helps interested communities             ;;:;:;;
                                                  $$                                         ,:,,l’..
                                                                                                 ....:.:r .,:.:
                                                                                                            ,.::.,:::..:::....:..,.
                                                                                                                         .I
                                                                                                                          . ..,
                                                                                                                              ,; .I:,.,
                                              ::,:
develop drug prevention programs. The I-.-._;:-           g:pr$v:nwon:i
                                               2.::,::::,:.:,,
                                                       :,:...                           pragra~g--:~~              ;;xy .:I:::;.::.::I..‘.
                                                 ::
                                              .A..... ..:.
                                                      .   .,::.:.:::.>::.
                                                                  .3  ::.:...
                                                                   :...,.,,.‘:,::    . :.
                                                                               :::li.:.,::.i:i:                   ::.:jjj:::::
                                                                                                                      ji:.:::
                                                                                                                          :g‘::
                                                                                                                              ..jj:::...j .:.j
project trams key community leaders and ,...:   ,.A
                                                  >.:::j:::‘:::...
                                                           .:.,.:
                                                              ..:>.:.:.:.;
                                                                     ,.j.::I.:...:.::::
                                                                                 <.y.:‘.:::.’
                                                                                      ::,:,.,
                                                                                          ,.,.,.  ,,,,,
                                                                                            .,,,,..,,,,.P::,y...,
                                                                                                ,,,,,.         7,::g::  ::,...:.:
community prevention boards to assess 

local needs and design community-specificprograms.. Prevention boards frequently 

include politicians, the police, the media, health personnel, parents, and young people. 

After the programs begin, Oregon TOGETHER! provides technical assistance 

primarily through information sharing and troubleshooting.                                         j


Oregon TOGETHER! teachescommunities to recognize risk factors that lead to drug 

abuse. Risk factors may include a family history of alcoholism, academic failure 

beginning in elementary school, friends who use drugs, and lax or unenforced alcohol 

laws. The greater the number of factors present in a youth’s life, the greater the 

potential for drug abuse. 


Oregon TOGETHER! helps the community develop specially tailored programs to 

addressits needs. Programs emphasizetotal community involvement and 

strengthening social bonds. Examples are parenting programs, revised community laws 

and norms concerning alcohol use and abuse,early childhood education, local media 

involvement, and drug-free school zones. 


Established in 1990, Oregon TOGETHER! is a joint effort of the Oregon Prevention 

Resource Center and the University of Washington School of Social Work. The 

project now operates in 35 Oregon communities and hopes to expand to 100 

communities by 1994. 


For more information, please contact: 


                                           Mr. Lany Didier
                                           office of Alcohol and Dnrg Abuse l+ograms
                                           II78 Chemekzta Streer;NE #IO2
                                           Salem, Oregon 97310
                                           (503) 378-2163




                                                                   17 

                                               LOCATION                      TXRGET                                PARTIUPATKM
              CREATZVBTECHNKZUB                ANDSCOPE                  AGEGUOUP
          SlVD~ANDPARENlsDOspecuL                                                el3                          PAREKIssITJDpns
              HOMEWORR-                                                                                         ANDlEAcHERs


h 1983, he courts indicted four Kansas            ..:j:I:
                                                    .:.:I-:i:::-‘ij:‘:ii,:ilii:.~:-ii::..::::::.:..-
                                                       .G”.’                +.i;:iil:‘i:
                                                                                :::... j::.::::::::i:::::j~_:jj::jii):i~::~~~::.~~~,
                                                            :.::.......j.j.~::..,:~:~:~..~:~::.‘,~
                                                                             5,:...    .....::j;:;    :... ..:j:.::j
                                                                                                              .;:>  :,X~:.:.
                                                                                                                        .... :.:.‘..:..
                                                                                                        .::~:j:.::::j.:.:;‘.
                                                                                             “:i’:i’&+::.
                                                                                                    .y::.      j;:,,,:.:.::j
                                                                                                                   :..C/’           .:<.
                                                                                                                                     . .’‘.:. *
City Royal baseball players for drug use          j$ ~~~~~can.:.b~the:~mos~.i                                             pwerfuI::                 ..:
                                                  ,,;i&f&&&:                                                                                                          ..
and sent three of them to jail. Ewing             ....:.:
                                                      . . ..:...:......::
                                                  I::;;$+.s+y            .I...      :.ki..:..:::>.
                                                                               ::.:.:::..:
                                                                                                &~&j$~;;;@&:,;
                                                                                                   ,.:..::..,..:).
                                                                                                          ..~ .::.j:.,:
                                                                                                                    ......       :...y
                                                                                                                        . ;::..::: L&y:&&of,  .:...,.::.::
                                                                                                                                    .::::.‘:::.:l.   .; ., .. .
Marion Kauffman, the team owner, met                               ..other.drug preventrorrprograms.                                                               :.,
                                                  j’i-i;i’ifgl  ~~:e~~~~~,p~~~:                                             ::~&~%&;litj.&j.,;.          .,:::jI:,
with the four players to talk about their         .:A’....-..:,.:::;::::>:           .. .; .,.,.,
                                                                    ;::,:+mvotved,‘“::.:;;.::~l:;:--;il~
drug use and find out what he could do            :::.:	:;~~~&ve~y
                                                  :j::,:.::.,,.,,. ,..,,,,     .
                                                                               ...,,                                        ?I,‘.;I,::::$.-ii-!:ii..;:;;:::;.;;i;:fj;i
                                                                                                                                                                 ;j:::
                                                                                                                                                                     :I:,
                                                                                                                                                                       :
                                                  .,.,,,,,.,.,./,,,.,.
                                                  :,:,:,     .,,..
                                                                 .:.,,,
                                                                    ,
                                                           ... ...,..,
                                                       .,...,,:.:...
                                                  .:.:):.:.y           ...,.,.,,
                                                                 .>.:.,,,...:. .,.
                                                                                 :,:..‘.’
                                                                                   :.:::.:.:     ...A
                                                                                                ..i. .‘....c:y:::-
                                                                                                      ...::::
                                                                        ..,,.,...y.::,......:..:y:::::::::,:.-::
                                                                                                  ./...           ‘.X‘.
                                                                                                                     .::..A.‘...
                                                                                                                      .‘.:..::::,::.. : .:     ..::.,
                                                                                                                                         ..:.:::.
                                                                                                                               .::.:::‘.‘.‘.“.‘:.:.:.,
                                                                                                        ‘::~:‘:.:-i:-::.i:i::-:.-         :y.:,,:
                                                                                                                                                .,..
                                                                                                                                   I:,,../,.,.,.,        .‘:...:..
                                                                                                                                                               ... I’
                                                                                                                                                                  ‘
                                                                                                                                              ,..,....:.,./:‘.:L’.....:.
to help   ebhate    drugs.   He decided   to      :.::.
                                                     r.?I<:        :i::I:..~:.T.,~~I
                                                         :li.:‘t:I:i:I::II:l,f
                                                                             :j.:T..::.:.::F:jr
                                                                                      ..:..‘A:f::.iII:      .-:.-ii:.;:Jo:..: .::.:.:...:,::..: ,,.,..::: .
                                                                                                i;::,.: : ::jj,
concentrate his efforts on youngstersand
their parents. With private funding, Mr. Kauffman started Project STAR (Students
Taught Awareness and Resistance).

Project STAR is a community-wide, prevention program aimed at reducing alcohol
and drug abuse. Project STAR provides consulting and training servicesfor schools
and communities that want to implement comprehensiveprevention programs. The
program targets 7th and 8th grade students. Teachers provide in-depth material on
(1) the effects of drug use, (2) resistancetechniques, (3) peer pressure, (4) advertising
techniques and effects, and (5) how to make informed decisions.

Project STAR believes that parents should know and understand their own influence
on their children. Several sessionsinclude homework assignmentsthat students and
parents complete together. These lessonsdevelop interpersonal and social skills and
promote communication about attitudes about alcohol and drug use and abuse. The
program trains parents to support their children’s resistanceskills through active
involvement in school-basedprograms.                      a
Project STAR now receivesfunding from the National Institute on Drug Abuse
through a grant to the University of Southern California. This project is part of the
Midwest Prevention Project.

For more information, please contact:

                               Mr. Bob Barrett
                               Project STAR
                               9300 Ward Parkway
                               Kansas City, Mkoun’               64114
                               (8I 6) 966-3155
                       .




                                                 18 

        PUPILs,LAWYER&ANDNURSES                AGAINSI’   DRUGS      (PL.AN)

                                                     TARGEr          P-Al-ION
                                        ANDSCOPE    AGEGROUP I                              I




Students stand quietly at the hospital nursery room
window and view the underweight babies. They now
see how mothers’ alcohol and drug use harms their
babies. Local district attorneys, nurses,and teachers
offer 5th~gradeand advanced4thgrade students in
Bronx, New York schoolsa realistic look at the health
and legal effects of drug and alcohol use. A former
district attorney developed Pupils, Lawyers, and Nurses               St
                                                             Studentsview fit-hand

Against Drugs (PLAN.) 3 years ago in responseto              the consequences   of drugs

the rising rates of acquired immune deficiency               and alcohot 

syndrome (AIDS) among Bronx students. P.LA.N. is 

funded through the Asset Forfeiture Program (money 

confiscated during drug salesbusts) and city funds. 


During the first week of the 4-week program, nursesteach students about the health
effects of alcohol and drug abuse,AIDS and intravenous drug use, and refusal skills.
Also, students are introduced to professionalswho are combating drugs in their
community-nurses, attorneys, and judges. During the secondweek, students visit a
community hospital to view newborn babies. They compare sizesof babies in the
regular nursery to babies with alcohol and drug withdrawal symptomsin the neonatal
intensive care nursery. As Dr. Kern Louie, program coordinator, commented, ‘The
compassionfrom the children is wonderful.” In week three, students visit a courthouse
to observe an actual trial-usually for a drug dealer. After the trial, the judge talks
with students about the judicial processand the legal consequencesof drug-dealing.
During the last week, students conduct their own moot court in the actual courtroom.
The district attorney rehearsesvarious parts with the students, and the proceeding is
videotaped and sent to the school. The moot court reinforces the morality of refusing
drugs. After the program, studentsreceive P.LA.N. certificates for participating in the
program.

For more information, please contact:

                           Kern B. Louie, PkD., RN., hgram Coordinator 

                           PLAN. 

                           Lehman College 

                           The City Uhivemity of New York 

                           250 Bedford Park Boulevard Wat 

                           Bronq New York IO468 

                           (212) 690-8213 (Nursing Deparmtent) 



                                          19
The   Virginia   &c&o1   Beverage   Control
(ABC) Information Division has
developed three education programs
concerning youth and alcohol-the
Minors Awareness Program, the Annual
College Conference, and Campaign 21.

The Minors Awareness Program targets middle and senior high school students. The
ABC trained 18 agents in public speaking, and they give the school presentations.
Their presentations include an educational alcohol videotape and student question­
and-answersessions. Since the ABC agentslook young, they can establish a faster and
better rapport with students.

The ABC also sponsorsan annual statewide College Conference. Participants from
more than 70 colleges and universities.attend. Now in its 6th year, the College
Conference promotes compliance with ABC laws and regulations and publicizes
alternatives to alcohol-related social activities. The 25person steering committee
includes college students and helps develop the conference agenda of 30 to 40 sessions
and identifies national speakers.

In June 1987,the Virginia ABC launched Campaign 21 to publicize the new State             .
drinking age. Using the slogan, “It’s 21 for everyone and for all alcoholic beverages,”
radio and television stations aired the messageas public service announcementsduring
prime time. The campaign includes posters, college newspaper art work, and vendor
decals.

For more information, please contacti

                               Mr. Tom Weedon, Director
                               The Infomtation Divbion
                               Vi      ABC Department
                               P.O. Box 27491
                               Richmond, Virginia 23261
                               (804) 367-0649




                                              20 

          WASHINGTON STATE ASSOCIATION OF BRO-





Two years ago, the Washington State Association of 

Broadcasters (WSAB) formed a task force to prevent 

alcohol use and abuseby young people. The task 

force’s initial goal was to “accomplish something 

meaningful and long-term.” Specifically, the task 

force wanted to: (1) provide broadcasterswith 

accurate, current information about alcohol use             Bt&castcrs usedteen 

and/or abuse; (2) develop screening criteria for            focusgzuupswhile

broadcast materials; (3) provide an advisory group to       developinga handbookof 

screenbroadcast substanceabuse materials, as well           responsiblealcohol
                                                                          

as provide sourcesfor information, interviews and           policiesfor broad-

research; and (4) work with advertising agencies, 

breweries and wineries to help them produce 

commercials that would discouragethe appeal of alcohol to young people ages15 to 

20. To accomplish these goals, WSAB used teen focus groups who addressedsuch
issuesas teen alcohol use, peer pressure, and current and future public service
announcements(PSAS).

The WSAB also developed a handbook, ‘Tough Choices: Tackling the Teen Alcohol
Problem.” The handbook outlines responsible policies regarding programming, the
newsroom, and PSAs. It discussesissuessuch as: Is a radio/TV station consciousof
program content? Are teen alcohol PSAs used and evaluated? Does the newsroom
have a written policy on alcohol coverage?Does the station portray alcohol as an
acceptable form of celebration, such as spring break and team victories?

The program’s executive director believes the handbook can help the broadcast
community, not only in Washington State but throughout the country, to portray
responsible images and utilize the media for positive gains.

For more information, please contact:

                           Mr. Mark A&n, ~ExecutiveDirector
                           Washington State Association of Broadcasters
                           1200 W;e;rtlakeAvenue North, Suite 414
                           Seattle, Washington 98IO9
                           (206) 286-2056




                                         21 

                              APPENDIX 

ADDITIONAL     ENFORCEMENT PROGRAMS:

Cedar City Alcohol Abuse Reduction Program
Contact: 	      Police Chief Peter Hansen
                Cedar City Police Department
                Box 249
                Cedar City, Utah 84720
                (801) 586-2956

Chemical Abuse Reduced through Education and Sewices (CARES)
Contact: 	    Judge JamesRay
              Lucas County Juvenile Court
              429 Michigan Street
              Toledo, Ohio 43624
              (419) 249-6719

Children of Drug Abusers and Alcoholics (CODA)
Contact: 	      Mrs. PeggyL Van Fleet, Director of Youth Services
                The Southeast Council on Alcoholism and Drug Problems, Inc.
                8515 Florence Avenue, Suite 200
                Downey, California 90240
                (213) 923-4545

CQoprative Enforcement Plan
Contact: 	    Police Chief David W. Purdy
              Columbus Police Department
              1455 27th Avenue
              Columbus, Nebraska 68601
              (402) 564-3201

Fake ID Initiative
Contact: 	       Mr. Bill Roche, Enforcement Supervisor
                 Alaska Alcoholic Beverage Commission
                 550 West Seventh Street
                 Anchorage, Alaska 99501
                 (907) 2778638

The Monitor Program
Contact: 	     Mr. Robert Robinson
               249 North Brand Boulevard, Suite 741
               Glendale California 91203-2615
               (818) 956-8243


                                        A-l
Practical Parenting
Contact: 	       Ms. Marj Buchholz, Director
                 The Family Based Anti-Drug Initiative Program
                 Juvenile Court Services
                 3401 East Bonanza Road
                 Las Vegas, Nevada 89101
                 (702) 455-5295

Project Graduation
Contacts: 	     Police Chief Ben Conant
                Sheriff’s Department
                23 Western Avenue
                South Paris, Maine 04281
                (207) 743-8934

                Mr. Tom Mowett 

                Project Graduation 

                Department of Education 

                Bureau of Instruction 

                Division of Alcohol and Drug Education Services 

                StevensSchool Complex, State House Station #57 

                Augusta, Maine 04333-0057 

                (207) 289-6500 


Rainbow Bridge
Contact: 	     Mr. Denny Ganley, Director
               Rainbow Bridge Juvenile Justice Center
               626 South 6th Street
               Minneapolis, Minnesota 55415 .
               (612) 348892(!




                                        A-2 

ADDITIONAL     PREVENTION PROGRAMS: 


Camp Tti Enuff 

We’re Worth It 

Contact:         Ms. Lucille Fleming, Director 

                 State of Ohio 

                 Department of Alcohol and Drug Addiction Services 

                 2 Nationwide Plaza 

                 280 North High Street-12th Floor 

                 Columbus, Ohio 43215 

                 (614) 466-3445 


cornerstone Project, Inc.
Contact: 	     Mr. Dermis Beaver, Director
               P.O. Box 2660
               Little Rock, Arkansas 72203
               (501) 375-6520

Developing Capable People
Contact: 	    Mr. H. Stephen Glenn, President
              Sunrise Associates
              P.O. Box 788
              Fair Oaks, California 95628
              (916) 961-5556

Developing Resourcesfor Education in America @.R.E.AX)
Contact: 	     Ms. June M. MiIam, Executive Director
               D.R.E.A.M.
               1935L&eland Drive, Suite B
               Jackson,Mississippi 39216
               (601) 362-9329or l-800-233-7326
                            a
Discovery Center
Contact: 	     Mr. Robert Morton, Drug and Alcohol Project Coordinator
               Discovery Center
               530 LaGonda Way, Suite A
               Damdle, California 94526
               (510) 837-0505

Florida Infixzued Parents for Drug Free Youth, Inc.
Contact: 	       Ms. Jeane Myddelton, Executive Director
                 Florida Informed Parents for Drug Free Youth, Inc.
                 241 John Knox Road, Suite 200
                 Tallahassee,Florida 323036677
                 (904) 922-4280


                                        A-3 

Friday Night Live
Contact: 	      Mr. Pat Barr
                Friday Night Live
                9738 Lincoln Village Drive
                Sacramento,California 95827
                (916) 440-5483

Hot Pursuit
Contact: 	     Lt. Karl Tresselt
               Sgt. Bill Taylor
               Columbus Police Division
               120 West-Gay
               Columbus, Ohio 43215
               (614) 645-4610

Iowa High School/College Cmfexence
Contact: 	    Mr. Mark Campbell, Youth Coordinator
              Governor’s Traffic Safety Bureau (GTSB)
              307 East SeventhStreet
              Des Moines, Iowa 50319:0248
              (515) 281-5430

“It’s OK Not To Drink”
Contact: 	      Ms. Sharon Rose
                It’s OK Not To Drink
                1306 Oak Avenue
                Davis, California 95616
                (916) 756-5610

Professor Bodywke
Contact:     -	 Dr. Sabrina Klein, Program Manager
                Educational Theatre Programs
                Kaiser Permanente Medical Program
                1950Franklin Street, 3rd Floor
                Oakland, California 94612
                (510) 987-2223

PromPromise
Contact: 	     Ms. Mary Sabine
               Nationwide Insurance
               Prom Promise
               One Nationwide Plaza
               Columbus, Ohio 43216
               (614) 249-6022




                                          A-4 

REACH America
Contact: 	  Mr. Stephen Avery, Associate Director
            National Federation of Parents for Drug Free Youth
            P.O. Box 3412
            Albuquerque, New Mexico 87190
            (505) 345-7174

The Scott Newman Center 

Contact:      Mr. Kevin C. Watson, Project Officer 

              The Scott Newman Center
              6255 Sunset Boulevard, #1906
              Los Angeles, California 90028
              (213) 469-2029

Sooner Alcohol-Narcotics Education (SANE)
Contact: 	     Reverend Don Chaffin
                101 Northeast 23rd Street
               Oklahoma City, Oklahoma 73105
               (405) 575-3354

Student A&stance Program 

Students Organ&d to Develop Atkudes (SODA) 

Contact: 	     Ms. Cindy Barnes
               Commonwealth of Virginia Department of Education   .

               Youth Risk Prevention, 21st Floor
               P.O. Box 6Q
               Richmond, Virginia 232X-2060
               (804) 225-2834

Enztitshhgton    Regional Alcohol Pqram (WRAP)
        ..      Ms. Pam Beer, Director
                The Washington Regional Alcohol Program 

                P.O. Box 15048 

                Chevy Chase,Maryland 20815 

                (301) 565-4161 





                                       A-S
Youth Eastside Services(YES)
Contacts: 	    Ms. Shtion Olsen, Coordinator
               Alcohol/Drug Prevention
               Youth Eastside Services
               16150N.E. 8th
               Bellevue, Washington 98008
               (206) 747-4YEs

               Ms. Maxy Schatz,Prevention Coordinator 

               King County Division of Alcohol and SubstanceAbuse 

               (206) 2964617 


Youth-tcbYouth
Contact: 	     Ms. Lori Frantz, Program Director
               Youth-to-Youth
               700 Bryden Road
               Columbus, Ohio 43215
               (614) 224-4506




                                       A-6 

